                                 Pension Benefit Guaranty Corporation
                                                                Office of Inspector General
                                                1200 K street, N.W., Washington, D.C. 20005-4026




                                                                       November 18,2009


Honorable Peter Orszag
Director, Office of Management and Budget
Eisenhower Executive Office Building
725 1ill Street, N.W. , Room 252
Washington, DC 20503

Dear Mr. Orszag:

The Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG)
contracted with Clifton Gunderson LLP , an independent public accounting firm, to perform,
under OIG oversight, the independent evaluation and review ofPBGC's information and
technology security required by the Federal Information Security Management Act (FISMA),
Federal Managers ' Financial Integrity Act (FMFIA) and the Office of Management and Budget
(OMB). The review assessed the effectiveness ofPBGC's information security program and
practices and determined compliance with the requirements of FISMA and related information
security policies, procedures, standards, and guidelines. Clifton Gunderson used the
Government Accountability Office's (GAO) Federal Information Systems Controls Audit
Manual (FISCAM) as well as guidance issued by the National Institute of Standards and
Technology to assess the impact PBGC's significant IT systems and operations. Specifically, the
areas of review included:
    • Entity-wide security program planning and management;
    • Access control;
    • Configuration management;
    • Segregation of duties; and
    • Contingency planning.

OMB's new reporting guidelines, as prescribed by Memorandum M-09-29 have directly impacted
our responses to a significant number of the FY 09 questions. In past years we did not opine on
"adequacy and effectiveness," rather we reached consensus with PBGC at a much higher level. For
example; last year we limited our review to determing whether certification and accreditation (C&A)
documentation for a system existed. This year we contracted for a detailed assessment of the
adequacy and effectiveness ofPBGC's information and technology security. A number of
significant deficiencies were identified which are reflected in our responses.

PBGC's systemic security control weaknesses and the lack of an integrated financial
management system posed increasing and substantial risk to PBGC 's ability to carry out its
mission during FY 2009. Communication to PBGC's key decision makers did not convey the

                                                                             LTR 2010-5/ FA-09-64-5
urgent need for decisive strategic decisions to correct fundamental weaknesses in PBGC's IT
controls and security. Strategic IT decisions did not address these deficiencies and significant
weaknesses.

Current year audit work found deficiencies in the areas of security management, access controls,
configuration management, and segregation of duties. Control deficiencies were also found in
policy administration, and the certification and accreditation of major applications and general
support systems. An effective entity-wide security management program requires a coherent
strategy for the architecture of the IT infrastructure and the deployment of systems. The
implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective
control processes to mature. Based on the current assessment, Clifton Gunderson reported:

   •   Information security policies and procedures were not fully disseminated and
       implemented. PBGC is not able to effectively enforce compliance for Security Awareness
       training. PBGC currently has a cumbersome and error prone manual process to account
       for personnel who have completed security awareness training.
   •   PBGC 's configuration management controls are labor intensive and ineffective.
       Weaknesses in the design ofPBGC's infrastructure and deployment strategy for systems
       and applications created an environment where strong technical controls and best
       practices cannot be effectively implemented.
   •   Controls are not consistently implemented to appropriately segregate duties and grant
       rights and privileges commensurate with job functions and responsibilities. PBGC does
       not have a coherent strategy for enforcing segregation of duties through strong technical
       controls in its applications and general support systems. Developers have access to the
       production environment, which exposes PBGC to the risk of unauthorized modification
       of applications, the circumvention of critical controls, and unnecessary access to sensitive
       data.
   •   PBGC's process for the completion ofC&A packages in accordance with NIST SP 800-
       37, Guide for the Security Certification and Accreditation ofFederal Information
       Systems is ineffective. Fundamental weaknesses in PBGC's infrastructure architecture
       and design do not support the certification and accreditation of its information systems.
       Furthermore, PBGC ' s information systems employ obsolete and antiquated technologies
       that pose additional risk to the availability of financially significant systems. The review
       determined that only 1 of the 13 C&A packages asserted that were completed in FY 2009
       met NIST requirements. Significant deficiencies were noted in access controls and
       configuration management for the remaining C&A packages.

The OIG and CIO 's office worked diligently to reconcile our FY 09 FISMA responses. While
we were in agreement on most questions posed by OMB , we did not agree on the number of
systems for which contingency plans have been tested in accordance with policy. Specifically,
the CIO 's office reported testing six systems and OIG reported four. We believe this
discrepancy stems from two agency systems that do not have adequate storage capacity or server
configurations at the COOP site. Therefore, in our view these systems do not meet the adequacy
and effectiveness threshold as prescribed by OMB Memorandum M-09-29 , FY 2009 Reporting


                                                                             LTR 2010-5/ FA-09-64-5
Instructions for the Federal Information Security Management Act and Agency Privacy
Management.
To its credit, PBGC has taken steps in developing an overall strategy to improve its IT
architecture and infrastructure. Major steps include:

    •   Completing an assessment of its Oracle database environment, initiating an IT
        Infrastructure modernization program and implementing strategic decisions on IT
        sourcing.
    •   PBGC completed the identification of all systems that provide data required to prepare
        the financial statements.
    •   PBGC has substantially completed the logical database model including standard data
        definitions and formats to be used throughout the Corporation.
    •   PBGC has completed the development of segment architectures for the Consolidated
        Financial Systems (CFS) and Premium Accounting. Segment Architectures will assist
        PBGC in identifying and planning financial technology recommendations for
        implementation and alternative analysis for business cases.

PBGC has made a commitment to have executi ves at the highest level focus on IT, but much
work remains. To further assist PBGC with its security program development and
implementation, the OIG will continue to perform independent evaluations on an annual basis in
addition to scheduled audits. Our work will include, but not be limited to, the following targeted
areas:
    • Review of contractor provided services , as well as services from agencies;
    • Annual financial statement audit, to include an evaluation of PBGC general and system
       controls;
    • Application reviews , in addition to those included in the annual financial statement audit;
       and
    • Reviews of agency incident handling.

As always, the OIG will continue to work with and support PBGC through our reviews and
analysis related to the agency 's mission and programs, including information assurance and
security.




Sincerel y,



Joseph A. Marchowsky
Assistant Inspector General for Audit




                                                                            LTR 2010-5/ FA-09-64-5
